No. 19-123
IN THE

Supreme Court of the United States
_________
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 20th day of August 2020, caused three copies of the Brief of
The American Psychological Association, American Academy of Pediatrics, American
Medical Association, and American Psychiatric Association as Amici Curiae in Support
of Respondents to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org
Counsel for Sharonell Fulton, et al.

Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel for Intervenor Support Center for
Child Advocates and Philadelphia Family
Pride

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for City of Philadelphia,
Department of Human Services for the
City of Philadelphia, Philadelphia
Commission on Human Relations
/s/ Jessica Ring Amunson
Jessica Ring Amunson

